                                           CLOSEOUT FOR M98080024




                                                                              -
                                                                              --
     -
             This case came to OIG on August 28, 1998, when Dr. e
    '                          a                         t the        fi                 (the
      complainant), informed OIG of a dispute between him and three other researchers. The
      researcheis were eDr.
                        ht ( '                 first subject) of the
    D        r       .M                   e second subject), also of the
                   and Dr. t            h             e third subject) of he-t
               The complainant supplied OIG with information suggesting that a paper1 written by
.     thesubjects and            in the m              t           h           e journal) might
      have benefited from improper use of a manuscript written by the complainant. The subjects'
      paper acknowledged support from NSF award-                      2


            The subjects had submitted a version of their paper to the journal for review. The
    complainant reviewed the paper. In his review, he noted an error in a mathematical proof'that
    was an important component of the paper. The journal declined to publish the paper as
    submitted and sent the fnst subject anonymous copies of three peer evaluations of the paper,
    including the complainant's evaluation. At about the same time, the complainant informed the
    subjects that he had reviewed their paper and sent them a manuscript? that purported to solve
    the mathematical problem that their paper had addressed. The subjects then sent the journal a
    revised version of their original manuscript. The revision included a new mathematical proof.
    The subjects' revised manuscript did not acknowledge the manuscript that the complainant sent
    as a source of any of its ideas.

            OIG wrote to the subjects, noting certain similarities between their revised paper and
    the complainant's manuscript and asking what use, if any, the subjects made of the manuscript
    that the complainant sent them. The subjects replied that they had benefited from the




                                                   -
    ' This award is entitled
                           w. -
                                                                                         -   Dr. (L
    -is        the PI. None of the subjects is listed as a PI or co-PI for this award.




                                                 page 1 of 2
                                   CLOSEOUT FOR M98080024

   criticisms in the complainant's review in devising a new mathematical proof but that, though
   they had read the manuscript the complainant sent them, they had not used it in revising their
   own paper.

           The first subject, upon receiving OIG's letter, referred the matter to the official at his
  university who handles misconduct in science allegations. Acting in accordance with the
  university's misconduct procedures, that official arranged for the relevant evidence in this
  case, including materials prepared by both the subjects and the complainant, to be examined by
  the chair of the first subject's department and three other faculty members at his university
. who possessed relevant scientific expertise. None of these three faculty members had
  affiliations with either the subjects or the complainant that might ordinarily bias their
  judgments of this matter. After reviewing the evidence, none of the faculty members found
  any reason to doubt the subjects' account of their revision of their paper, nor any reason to
  infer that the subjects made inappropriate or unacknowledged use of the manuscript the
  complainant sent. Earlier, on the basis of more limited evidence, the editor of the journal that
  published the subjects' paper had reached a similar conclusion.

          OIG concluded that the subjects' account of the revision of their paper was credible and
  that there was no evidence to contradict it. We therefore concluded that there was no
  substance to the allegation that the subjects had committed misconduct in science by making a
  seriously inappropriate or unacknowledged use of the manuscript that the complainant sent
  them.

         In the course of this case, we received allegations that certain of the complainant's
  actions were themselves improper. OIG lacked jurisdiction over these actions, none of which
  occurred in the course of "proposing, carrying out, or reporting on activities funded by NSF"
  (45 C.F.R. 5 689.1(a)(l)). Because of this, we did not inquire into these allegations.

          This inquiry is closed and no further action will be taken on this case.




                                         page 2 of 2
